                   AUDIT REPORT


                      Audit of NRC’s Force-on-Force
                            Inspection Program


                        OIG-09-A-12 July 30, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          July 30, 2009


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S FORCE-ON-FORCE INSPECTION
                            PROGRAM (OIG-09-A-12)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Force-on-Force Inspection Program.

The report presents the results of the subject audit. Agency comments provided during
and subsequent to a July 21, 2009, exit conference have been incorporated, as
appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                           Audit of NRC’s Force-on-Force Inspection Program



EXECUTIVE SUMMARY

           BACKGROUND

                    The Nuclear Regulatory Commission (NRC) conducts Force-on-
                    Force inspections at each of the Nation’s nuclear power plants on
                    at least a triennial basis in accordance with the 2005 Energy Policy
                    Act.1 A Force-on-Force inspection is a performance-based
                    inspection designed to assess the ability of licensees’ security
                    organizations to protect their facilities against sabotage.2 Any
                    potentially significant deficiencies identified during these
                    inspections are to be promptly corrected by the licensee.

                    The Office of Nuclear Security and Incident Response (NSIR)
                    manages the Force-on-Force inspection program. Force-on-Force
                    inspections are part of NRC’s baseline physical protection
                    inspection program, and are the only baseline inspections managed
                    at the headquarters level.3 Teams of headquarters-based
                    inspectors and security risk analysts conduct inspections with
                    support from physical security inspectors based in NRC’s four
                    regional offices. These regional inspectors provide site-specific
                    knowledge and represent their respective offices while on site with
                    headquarters staff and licensee employees. U.S. military personnel
                    serve as technical advisors to the NRC teams and assist with some
                    inspection tasks.
                    The Force-on-Force program budget for Fiscal Year (FY) 2009 is
                    approximately $3.5 million, and composes about 6 percent of
                    NSIR’s FY 2009 budget. Of the 251 Full Time Equivalents (FTE)
                    allocated to NSIR in FY 2009, 14.8 FTE (6 percent) are assigned to
                    the Force-on-Force program. NRC began the second triennial
                    Force-on-Force inspection cycle in January 2008. NRC plans to
                    conduct 25 Force-on-Force inspections during FY 2009.


           PURPOSE

                    The objective of this audit was to evaluate NRC’s Force-on-Force
                    inspection program to determine if design and implementation of
                    the program are thorough, consistent, and in accordance with NRC

1
    Pub L. No. 109-58, “The 2005 Energy Policy Act,” §651, August 8, 2005.
2
 NRC also conducts Force-on-Force inspections at other facilities that handle special nuclear materials,
such as nuclear fuel cycle facilities. However, this audit focused on inspections at nuclear power plants.
3
    Inspection Procedure (IP) 71130, “Baseline Physical Protection Program.”
                                                       i
                                        Audit of NRC’s Force-on-Force Inspection Program



       standards. The audit focused on the program’s development from
       the first triennial inspection cycle through the current second
       triennial inspection cycle.


RESULTS IN BRIEF

       NRC conducts Force-on-Force inspections to evaluate licensees’
       ability to protect nuclear power plants against Design Basis Threat
       type adversaries. NRC meets its 2005 Energy Policy Act
       requirement to conduct Force-on-Force inspections on a triennial
       basis, and the program has adequate management controls to
       ensure that inspections are thorough and comply with NRC
       standards. In particular, the Office of the Inspector General found:

          NSIR management assessed the Force-on-Force program early
           in the second inspection cycle, and subsequently undertook
           organizational and procedural changes to improve internal
           controls and program performance.

          NSIR and regional staff differ over interpretation of some NRC
           guidance and approaches to conducting Force-on-Force
           inspections.

       By taking steps to reach agreement between headquarters and
       regional staff regarding Force-on-Force inspection program
       guidance, objectives, and best practices, NRC can better ensure its
       credibility with licensees and foster positive working relationships
       among staff involved in the Force-on-Force inspection program.


 RECOMMENDATIONS

       All recommendations for this report appear at the end of Finding B.


 AGENCY COMMENTS

       At a July 21, 2009, exit conference, NRC senior managers agreed
       with the report contents and provided editorial suggestions. This
       final report incorporates revisions made, where appropriate, as a
       result of the agency’s suggestions.




                                   ii
                                   Audit of NRC’s Force-on-Force Inspection Program



ABBREVIATIONS AND ACRONYMS

       CAF     Composite Adversary Force

       CFR     Code of Federal Regulations

       DBT     Design Basis Threat

       FTE     Full-Time Equivalent

       FY      Fiscal Year

       IDS     Intrusion Detection System

       NRC     Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response




                             iii
                    Audit of NRC’s Force-on-Force Inspection Program




[Page intentionally left blank.]




               iv
                                                 Audit of NRC’s Force-on-Force Inspection Program



TABLE OF CONTENTS

        EXECUTIVE SUMMARY..........................................................i

        ABBREVIATIONS AND ACRONYMS .................................... iii

        I.     BACKGROUND.............................................................. 1

        II.    PURPOSE ..................................................................... 4

        III.   FINDINGS ...................................................................... 5

               A.     NSIR Management Has Assessed the Force-on-Force
                      Program and Instituted Changes to Enhance
                      its Performance ...................................................... 5

               B.     Headquarters and Regional Staff Differ Over
                      Guidance and Approaches to Force-on-Force
                      Inspections ............................................................. 8

        IV.    AGENCY COMMENTS ................................................ 12


    APPENDICES

        A.     TITLE 10, CODE OF FEDERAL REGULATIONS,
               SECTION 73.1a AND b ................................................ 13

        B.     SCOPE AND METHODOLOGY ................................... 17




                                             v
                    Audit of NRC’s Force-on-Force Inspection Program




[Page intentionally left blank.]




               vi
                                                          Audit of NRC’s Force-on-Force Inspection Program



I.       BACKGROUND

                    The Nuclear Regulatory Commission (NRC) conducts Force-on-
                    Force inspections at each of the Nation’s nuclear power plants on
                    at least a triennial basis in accordance with the 2005 Energy Policy
                    Act.4 A Force-on-Force inspection is a performance-based
                    inspection designed to assess the ability of licensees’ security
                    organizations to protect their facilities against sabotage.5 Any
                    potentially significant deficiencies identified during these
                    inspections are to be promptly corrected by the licensee.

                    The Office of Nuclear Security and Incident Response (NSIR)
                    manages the Force-on-Force inspection program. Force-on-Force
                    inspections are part of NRC’s baseline physical protection
                    inspection program, and are the only baseline inspections managed
                    at the headquarters level.6 Teams of headquarters-based
                    inspectors and security risk analysts conduct inspections with
                    support from physical security inspectors based in NRC’s four
                    regional offices. These regional inspectors provide site-specific
                    knowledge and represent their respective offices while on site with
                    headquarters staff and licensee employees. U.S. military personnel
                    serve as technical advisors to the NRC teams and assist with some
                    inspection tasks.

                    NRC conducts each Force-on-Force inspection in three phases.
                    The first phase, target set7 review, is performed by headquarters-
                    based security risk analysts and generally occurs at least several
                    weeks before onsite inspection work begins. Security risk analysts
                    review plant operating procedures and documentation of plant
                    operating systems in coordination with licensee security and
                    engineering personnel. Following their evaluation, security risk
                    analysts create a list of potential target sets to be used in planning
                    the exercise portion of the inspection.




4
    Pub L. No. 109-58, “The 2005 Energy Policy Act,” §651, August 8, 2005.
5
 NRC also conducts Force-on-Force inspections at other facilities that handle special nuclear materials,
such as nuclear fuel cycle facilities. However, this audit focused on inspections at nuclear power plants.
6
    Inspection Procedure (IP) 71130, “Baseline Physical Protection Program.”
7
  A target set is a combination of equipment, which, if damaged or disabled, would likely result in significant
reactor core damage. Target sets also include plant operator actions intended to prevent or mitigate damage
to this equipment.

                                                      1
                                                        Audit of NRC’s Force-on-Force Inspection Program



                 During the second phase, pre-exercise planning week, NRC
                 inspection teams composed of headquarters and regional staff
                 conduct onsite planning and inspection work in preparation for
                 Force-on-Force exercises. For example, the inspection teams
                 conduct tabletop drills with licensee personnel to evaluate plant
                 security plans against a series of possible attack scenarios. In
                 addition to tabletop drills, the NRC inspection teams physically test
                 plant intrusion detection systems,8 and observe a sample of plant
                 security personnel perform tactical demonstrations.

                 The exercise week is the last portion of the inspection. During this
                 week, a composite adversary force (CAF) playing the role of a
                 mock adversary group simulates attacks against the power plant.9
                 The CAF is trained and equipped to approximate the capabilities of
                 a design basis threat (DBT) adversary. The DBT reflects NRC’s
                 intelligence analysis of the type, composition, and capabilities of
                 potential adversaries.10 The CAF attempts to simulate destroying
                 enough plant equipment to damage the power reactor’s core or
                 spent fuel pool, thereby triggering a release of radiation into the
                 environment. The licensee’s security personnel seek to interdict
                 the CAF and prevent damage to plant equipment.

                 NRC gives plant operators 8 to12 weeks advance notice of Force-
                 on-Force inspections for safety and logistical purposes. Plant staff
                 must coordinate the efforts of two sets of security officers: one for
                 maintaining site security during exercises, and another for
                 participating in the exercises. In addition, plant staff must assemble
                 and train a group of individuals, typically plant employees, to control
                 and monitor exercises.




8
 NRC regulations require detection of penetration or attempted penetration of a power plant’s protected
area to ensure that the plant’s security organization can adequately respond. A perimeter intrusion
detection system generally consists of one or more sensors, electronic processing equipment, a power
supply, signal transmission media, an alarm monitor with display, and a means for maintaining and providing
an alarm history. See NRC Regulatory Guide 5.44, pp.1-2.
9
 The CAF is composed of security officers from various nuclear power plants, and is managed by a private
company that provides security services for a number of U.S. nuclear power plants. Although NRC does not
oversee CAF teams, NRC inspectors monitor CAF performance with assistance from U.S. military personnel
assigned to inspection teams. NRC requires a separation of functions between the CAF and licensee
security forces to ensure an independent, reliable, and credible mock adversary force.

10
  DBT details are classified; however, Title 10 Section 73.1 of the Code of Federal Regulations (CFR)
prescribes general DBT adversary characteristics. See Appendix A for 10 CFR 73.1 a (Purpose) and b
(Scope).
                                                    2
                                                        Audit of NRC’s Force-on-Force Inspection Program




                                                                 Licensee security
                                                                 personnel preparing for a
                                                                 Force-on-Force exercise.
                                                                 Source: NRC




                 The Force-on-Force program budget for Fiscal Year (FY) 2009 is
                 approximately $3.5 million, and composes about 7 percent of
                 NSIR’s FY 2009 budget. Of the 251 Full Time Equivalents (FTE)
                 allocated to NSIR in FY 2009, 14.8 FTE (6 percent) are assigned to
                 the Force-on-Force program. Table 1 shows program budget and
                 FTE data for FY 2005 through FY 2009.

             Table 1: Force-on-Force Program Annual Budgets and FTE

               FY 2005            FY 2006              FY 2007        FY 2008           FY 2009
 Budget
               $1,878,397       $1,911,088        $1,395,392         $2,049,530       $3,500,00011


     FTE
                         9.3              14.6               17.2            15.4               14.8
Source: OIG analysis of NSIR data.

                 NRC began the second triennial Force-on-Force inspection cycle in
                 January 2008. NRC plans to conduct 25 Force-on-Force
                 inspections during FY 2009. Auditor analysis of historical data
                 found that inspector workload varies from site to site, depending on
                 variables such as the amount of followup needed after each site’s
                 inspection. Graph 1 shows median annual inspection hours per
                 site from FY 2005 through FY 2008.



11
  The program budget increase in FY 2009 reflects costs of upgrading Multiple Integrated Laser
Engagement System equipment used to simulate gunfire in Force-on-Force exercises, as well as the
purchase of a new truck and trailer to transport this equipment.

                                                   3
                                                     Audit of NRC’s Force-on-Force Inspection Program



         Graph 1: Median Annual Force-on-Force Inspection Hours Per Site


                    Median Force-on-Force Inspection Hours per Site
                               FY 2005 through FY 2008
              700
              600
                                                                                Median Regular
              500                                                               Hours
              400                                                               Median Overtime
      Hours                                                                     Hours
              300
                                                                                Median Total Hours
              200
              100
                0
                       FY05     FY06          FY07          FY08
                                       Year

Source: OIG analysis of NSIR data.

II.    PURPOSE

                The objective of this audit was to evaluate NRC’s Force-on-Force
                inspection program to determine if design and implementation of
                the program are thorough, consistent, and in accordance with NRC
                standards. The audit focused on the program’s development from
                the first triennial inspection cycle through the current second
                triennial inspection cycle.




                                               4
                                                           Audit of NRC’s Force-on-Force Inspection Program



III. FINDINGS

                    NRC conducts Force-on-Force inspections to evaluate licensees’
                    ability to protect nuclear power plants against DBT-type
                    adversaries. NRC meets its 2005 Energy Policy Act requirement to
                    conduct Force-on-Force inspections on a triennial basis, and the
                    program has adequate management controls to ensure that
                    inspections are thorough and comply with NRC standards. In
                    particular, the Office of the Inspector General found:

                       NSIR management assessed the Force-on-Force program early
                        in the second inspection cycle, and subsequently undertook
                        organizational and procedural changes to improve internal
                        controls and program performance.

                       NSIR and regional staff differ over interpretation of some NRC
                        guidance and approaches to conducting Force-on-Force
                        inspections.

                    By taking steps to reach agreement between headquarters and
                    regional staff regarding Force-on-Force inspection program
                    guidance, objectives, and best practices, NRC can better ensure its
                    credibility with licensees and foster positive working relationships
                    among staff involved in the Force-on-Force inspection program.


         A. NSIR Management Has Assessed the Force-on-Force Program and
            Instituted Changes To Enhance Its Performance

                    As a best practice, management should periodically assess
                    programs and apply the results to improve program performance.
                    In response to industry concerns regarding the consistency of
                    inspections, NSIR staff assessed the Force-on-Force program in
                    summer 2008. Following this assessment, NSIR management
                    implemented several organizational and procedural changes
                    designed to improve program performance. Some of these
                    changes were instituted through revision of the Force-on-Force
                    inspection procedure.12




12
     The current version of IP 71130.03 took effect in February 2009.
                                                       5
                              Audit of NRC’s Force-on-Force Inspection Program



Branch Reorganization

NSIR management created the Security Training and Support
Branch to manage inspection scheduling, development of new
guidance, staff training, and other support tasks. These tasks were
previously performed by the Security Performance Evaluation
Branch, which also runs Force-on-Force inspections. The new
organization enables the Security Performance Evaluation Branch
to focus on inspections, and divides management duties between
the respective branch chiefs.

Standardization of Training Requirements

Headquarters-based Force-on-Force inspectors are now required
to satisfy full qualification standards prescribed in Inspection
Manual Chapter 1245. This aligns the program with qualification
standards for regional-based physical security inspectors.
Previously, Force-on-Force inspectors were not subject to
Inspection Manual Chapter 1245 standards and thus were not
required to undergo training and demonstrate proficiency in basic
inspection skills.

Increased Recruitment and Training of Force-on-Force
Personnel

NSIR management has increased recruiting and training of security
risk analysts and Force-on-Force inspectors to add rotational depth
and distribute workload more evenly among staff. These efforts
respond to workload and inspection schedule pressures, as well as
reportedly high staff turnover problems during the first inspection
cycle. Though Force-on-Force team members rated morale as
high, several acknowledged that the frequent travel and long work
days required for inspections are significant sources of stress.

Revised Target Set Review Procedures and Standards

NSIR management introduced new target set review procedures
and adopted new standards for the types of actions plant operators
could take to protect critical plant equipment. Previously, NSIR
security risk analysts conducted site visits during the pre-exercise
planning week, which limited target set review time and increased
the chance of unresolved issues impacting subsequent exercises.
Security risk analysts now review target set information and visit
licensees’ sites before Force-on-Force inspections begin. In
addition, the new inspection procedure enhances criteria that

                          6
                                                          Audit of NRC’s Force-on-Force Inspection Program



                  licensees must meet to receive credit for actions that plant
                  operators would take during a contingency, such as a terrorist
                  attack, to protect target set equipment. Specifically, licensees must
                  demonstrate that their operators are properly trained and equipped,
                  and are physically capable of performing planned protective actions
                  while their plant is under attack.13

                  Escalation Process

                  The revised inspection procedure provides licensees a formal
                  escalation process for resolving disputes with NRC about
                  inspection planning and conduct. The process is designed to
                  resolve disputes at the lowest NSIR management level necessary,
                  and progressively elevate matters as higher management
                  involvement is warranted. This enables Force-on-Force inspection
                  team leaders to focus on inspection tasks while NSIR managers
                  work directly with licensee managers to address their concerns,
                  thereby reducing the impact of disputes on inspection schedules.

                  Exercise Lessons Learned

                  The revised inspection procedure establishes a formal process for
                  capturing lessons learned and applying them to program guidance.
                  According to NSIR staff, this previously occurred informally as staff
                  shared observations about inspections verbally among themselves.
                  The new procedure includes a template to be used in documenting
                  lessons learned during inspections. Moreover, this new guidance
                  requires managers to document cases in which lessons learned
                  could serve as the basis for revising program guidance.

                  Because these organizational and procedural changes have only
                  recently been implemented, it is too early for OIG to evaluate the
                  effectiveness of each change in meeting its intended goals.
                  However, based on feedback received from industry and NRC staff,
                  OIG believes these changes have the potential to enhance the
                  efficiency, transparency, and rigor of the Force-on-Force inspection
                  program.




13
   For instance, licensees cannot claim credit if high radiation or other environmental hazards would prevent
operators from carrying out protective actions. Additionally, plant operators must be capable of accessing
target set equipment without risking their own safety by confronting adversaries or passing through areas
controlled by adversaries.
                                                      7
                                   Audit of NRC’s Force-on-Force Inspection Program



B.   Headquarters and Regional Staff Differ Over Guidance and
     Approaches to Force-on-Force Inspections

     Improved coordination of headquarters and regional inspection
     activities would result from a shared understanding of policies and
     procedures, and open communication among staff. Headquarters
     and regional staff differ over interpretation of some inspection
     guidance, and over approaches to conducting Force-on-Force
     inspections. This has occurred in part because the program has
     undergone substantial changes in a short period of time, but
     procedural changes have not been effectively communicated to
     regional staff in a systematic fashion. Additionally, differences
     among headquarters and regional staff with respect to professional
     backgrounds and skillsets are an additional factor. These issues
     have not compromised Force-on-Force inspections; however,
     disagreements between headquarters and regional staff regarding
     procedures and policy can undermine NRC’s credibility with
     licensees and degrade staff morale.

     Coordination of Headquarters and Regional Efforts Benefits
     From Shared Understanding of Policies and Procedures

     Improved coordination of headquarters and regional inspection
     activities would result from a shared understanding of policies and
     procedures, and open communication among staff. Internal control
     principles applicable to NRC recommend that agency managers
     communicate openly about policies and procedures, both internally
     with their staff and externally with licensees. In addition, agency
     managers should be conscious of issues affecting their agency’s
     internal control environment, including:

        Organizational structure and delegation of authority.
        Human capital policies and practices.
        Employee morale, competence, and discipline.

     Headquarters and Regional Staff Differ Over Inspection
     Guidance and Approaches

     Headquarters and regional staff differ over interpretation of some
     inspection guidance, and over approaches to conducting Force-on-
     Force inspections. First, auditors found disagreements among
     some staff regarding NRC’s process for determining ownership of
     findings resulting from Force-on-Force inspections. Specifically,
     staff said NRC lacked clear direction regarding the scope of
     headquarters and regional responsibilities for developing and
     following up on findings. In addition, some regional staff expressed
                                8
                                                           Audit of NRC’s Force-on-Force Inspection Program



                  concern that headquarters was assuming more responsibility for
                  non-Force-on-Force baseline security issues, which have
                  traditionally been the responsibility of NRC’s regional offices. This
                  issue was eventually resolved during a May 2009 counterpart
                  meeting involving headquarters and regional staff, and NSIR
                  management agreed to clarify the inspection guidance.

                  Second, headquarters and some regional staff differ in their
                  interpretations about procedural standards for Intrusion Detection
                  System (IDS) testing. These standards determine how Force-on-
                  Force teams “challenge test” licensees’ systems during the pre-
                  exercise planning week. Challenge testing entails broader goals
                  and fewer constraints than operational tests performed by
                  licensees; thus, interpretation of NRC’s standards affects staff and
                  licensee perceptions about whether Force-on-Force teams conduct
                  challenge testing with an appropriate level of rigor.14

                  Headquarters and some regional staff expressed differing views
                  about headquarters teams' approaches to conducting Force-on-
                  Force inspections. The majority of regional staff interviewed
                  characterized these inspections as excessively adversarial, and
                  attributed this to what they perceive as an overly aggressive
                  mentality among headquarters staff and the CAF. Further, a few
                  regional staff believed Force-on-Force exercise scenarios
                  developed by the headquarters based teams exaggerate real-world
                  threats to power plants. In contrast, headquarters-based Force-on-
                  Force staff who expressed an opinion felt that that the exercises
                  fairly test licensee security programs and appropriately fulfill NRC's
                  regulatory15 and statutory16 requirements to evaluate licensees
                  using credible, challenging scenarios reflecting DBT
                  characteristics.17



14
   Force-on-Force teams conduct operational testing during the pre-exercise planning week to ensure
licensees’ IDS equipment functions as designed and complies with standards in NRC Regulatory Guide
5.44. Teams also conduct challenge testing, which probes the IDS for vulnerabilities that an adversary might
exploit. According to IP 71130.03, challenge testing is to simulate DBT-adversary actions and is not
bounded by NRC Regulatory Guide 5.44 Option 1 or 2 standards.
15
   NRC guidance requires inspection team leaders to select scenarios that challenge licensees’ protective
strategies, and to ensure that scenarios target site-specific vulnerabilities. See IP 71130.03, p.31.
16
  According to the 2005 Energy Policy Act, NRC shall conduct exercises that “to the maximum extent
practicable, simulate security threats in accordance with any design basis threat applicable to a facility.”
See Pub L. No. 109-58, “The 2005 Energy Policy Act,” §651, August 8, 2005.
17
  NRC Regulatory Guide 5.69 provides Force-on-Force teams guidance for planning and conducting
exercises. IP 71130.03 includes an addendum, or “tactics guide,” to help inspection teams apply DBT-
adversary characteristics to exercise scenarios.
                                                       9
                                                          Audit of NRC’s Force-on-Force Inspection Program



                  Staff Differences Result From Rapid Program Change, Lack of
                  Systematic Communication, and Other Factors

                  Differences between headquarters and regional staff interpretations
                  of inspection guidance have resulted primarily from rapid program
                  change and lack of systematic communication. The professional
                  backgrounds of staff and team dynamics are additional factors.
                  First, the Force-on-Force inspection program has undergone
                  significant organizational and procedural changes since August
                  2008. NSIR staff have briefed licensee personnel and industry
                  representatives on these changes and their implications, yet policy
                  and procedural changes have not been effectively communicated to
                  regional staff in a systematic fashion. Regional managers said they
                  communicate with NSIR management on an as-needed basis.
                  Regional security inspectors learn of new policies and procedures
                  by memos, e-mail, and their respective regional managers. Some
                  information is communicated by headquarters-based staff to
                  regional inspectors on site during Force-on-Force inspections.

                  Counterpart meetings are another means of sharing information;
                  however, several regional staff suggested that these meetings
                  would be more beneficial if held on a routine basis.

                  Second, regional and headquarters staff have different professional
                  backgrounds, which influences team dynamics and inspection
                  conduct. Regional physical security inspectors tend to have greater
                  depth of experience with inspections and NRC’s regulatory
                  processes. Both headquarters and regional staff consider on-the-
                  job training important for developing key skills such as
                  communicating with licensees and documenting findings. In
                  contrast, most headquarters-based Force-on-Force team members
                  have less than 2 years of experience conducting Force-on-Force
                  inspections.18 However, all of the current Force-on-Force
                  inspectors have previous military and/or law enforcement
                  experience, which has some applicability to evaluating licensee
                  security programs and planning offensive missions for exercises.
                  This mix of personnel with different backgrounds, skills, and lengths




18
   The Force-on-Force program instituted formal training program for inspectors in the first quarter of FY
2009. As of April 2009, 9 of 12 Force-on-Force inspectors were certified basic inspectors; one inspector
was fully certified.

                                                     10
                                                        Audit of NRC’s Force-on-Force Inspection Program



                 of service—which is inherent in Force-on-Force team
                 composition—impacts inspection planning and conduct as Force-
                 on-Force team leaders try to leverage individuals’ skills and apply
                 lessons learned in conducting their work.19

                 Staff Differences Can Undermine NRC’s Credibility With
                 Licensees and Degrade Morale

                 Although the Force-on-Force program has management controls in
                 place to ensure the consistency and transparency of inspections,
                 lack of agreement on policy and procedures between regional and
                 headquarters staff can undermine NRC’s credibility with licensees.
                 Regional staff told auditors that they need clear understanding of
                 agency policy so they can explain NRC’s actions to licensees.
                 Otherwise, they risk contradicting their colleagues or misinforming
                 licensee personnel, which can undermine the image of inspectors
                 as competent, impartial regulators. Moreover, auditors found that
                 unresolved disagreements between headquarters and regional staff
                 can degrade morale by raising staff concerns about NSIR
                 management’s receptiveness to their ideas and concerns.

                 Recommendations

                 OIG recommends that the Executive Director for Operations:

                 1.     Develop and implement a plan for routine communications
                        between headquarters management and regional staff
                        involved in the Force-on-Force program.

                 2.     Encourage cross-training and rotational opportunities for
                        headquarters and regional staff involved in the Force-on-Force
                        program.




19
   Based on interview feedback, auditors found that the role of regional inspectors in Force-on-Force
inspections depends upon various factors such as inspection team needs, team leader prerogative, and
regional inspectors’ seniority and expectations.
                                                   11
                                       Audit of NRC’s Force-on-Force Inspection Program



IV.   AGENCY COMMENTS

         At a July 21, 2009, exit conference, NRC senior managers agreed
         with the report contents and provided editorial suggestions. This
         final report incorporates revisions made, where appropriate, as a
         result of the agency’s suggestions.




                                  12
                                          Audit of NRC’s Force-on-Force Inspection Program


                                                                              Appendix A


Title 10, Code of Federal Regulations, Section 73.1a and b

          (a)    Purpose. This part prescribes requirements for the
          establishment and maintenance of a physical protection system
          which will have capabilities for the protection of special nuclear
          material at fixed sites and in transit and of plants in which special
          nuclear material is used. The following design basis threats, where
          referenced in ensuing sections of this part, shall be used to design
          safeguards systems to protect against acts of radiological sabotage
          and to prevent the theft or diversion of special nuclear material.
          Licensees subject to the provisions of §73.20 (except for fuel cycle
          licensees authorized under Part 70 of this chapter to receive,
          acquire, possess, transfer, use, or deliver for transportation formula
          quantities of strategic special nuclear material), § 73.50, and
          §73.60 are exempt from § 73.1(a)(1)(i)(E), §73.1(a)(1)(iii),
          73.1(a)(1)(iv), §73.1(a)(2)(iii), and §73.1(a)(2)(iv). Licensees subject
          to the provisions of §72.212 are exempt from §73.1(a)(1)(iv).

          (1)    Radiological sabotage.

          (i)     A determined violent external assault, attack by stealth, or
          deceptive actions, including diversionary actions, by an adversary
          force capable of operating in each of the following modes: A single
          group attacking through one entry point, multiple groups attacking
          through multiple entry points, a combination of one or more groups
          and one or more individuals attacking through multiple entry points,
          or individuals attacking through separate entry points, with the
          following attributes, assistance and equipment:

          (A) Well-trained (including military training and skills) and
          dedicated individuals, willing to kill or be killed, with sufficient
          knowledge to identify specific equipment or locations necessary for
          a successful attack;

          (B) Active (e.g., facilitate entrance and exit, disable alarms and
          communications, participate in violent attack) or passive (e.g.,
          provide information), or both, knowledgeable inside assistance;

          (C) Suitable weapons, including handheld automatic weapons,
          equipped with silencers and having effective long range accuracy;

          (D) Hand-carried equipment, including incapacitating agents and
          explosives for use as tools of entry or for otherwise destroying
          reactor, facility, transporter, or container integrity or features of the
          safeguards system; and
                                       13
                                 Audit of NRC’s Force-on-Force Inspection Program



(E) Land and water vehicles, which could be used for transporting
personnel and their hand-carried equipment to the proximity of vital
areas; and

(ii)   An internal threat; and

(iii) A land vehicle bomb assault, which may be coordinated with
an external assault; and

(iv) A waterborne vehicle bomb assault, which may be coordinated
with an external assault; and

(v)    A cyber attack.

(2) Theft or diversion of formula quantities of strategic special
nuclear material.

(i) A determined violent external assault, attack by stealth, or
deceptive actions, including diversionary actions, by an adversary
force capable of operating in each of the following modes: a single
group attacking through one entry point, multiple groups attacking
through one or more groups and one or individuals attacking
through multiple entry points, or individuals attacking through
separate entry points, with the following attributes, assistance and
equipment:

(A) Well-trained (including military training and skills) and
dedicated individuals, willing to kill or be killed, with sufficient
knowledge to identify specific equipment or locations necessary for
a successful attack;

(B) Active (e.g., facilitate entrance and exit, disable alarms and
communications, participate in violent attack) or passive (e.g.,
provide information), or both, knowledgeable inside assistance;

(C) Suitable weapons, including handheld automatic weapons,
equipped with silencers and having effective long range accuracy;

(D) Hand-carried equipment, including incapacitating agents and
explosives for use as tools of entry or for otherwise destroying
reactor, facility, transporter, or container integrity or features of the
safe-guards system;

(E) Land and water vehicles, which could be used for transporting
personnel and their hand-carried equipment; and

(ii)   An internal threat; and

                            14
                                Audit of NRC’s Force-on-Force Inspection Program



(iii) A land vehicle bomb assault, which may be coordinated with
an external assault; and

(iv) A waterborne vehicle bomb assault, which may be coordinated
with an external assault; and

(v)   A cyber attack.

(b)   Scope

(1)   This part prescribes requirements for:

(i) The physical protection of production and utilization facilities
licensed under parts 50 or 52 of this chapter,

(ii) The physical protection of plants in which activities licensed
pursuant to part 70 of this chapter are conducted, and

(iii) The physical protection of special nuclear material by any
person who, pursuant to the regulations in part 61 or 70 of this
chapter, possesses or uses at any site or contiguous sites subject
to the control by the licensee, formula quantities of strategic special
nuclear material or special nuclear material of moderate strategic
significance or special nuclear material of low strategic significance.

(2) This part prescribes requirements for the physical protection of
special nuclear material in transportation by any person who is
licensed pursuant to the regulations in parts 70 and 110 of this
chapter who imports, exports, transports, delivers to a carrier for
transport in a single shipment, or takes delivery of a single
shipment free on board (F.O.B.) where it is delivered to a carrier,
formula quantities of strategic special nuclear material, special
nuclear material of moderate strategic significance or special
nuclear material of low strategic significance.

(3) This part also applies to shipments by air of special nuclear
material in quantities exceeding: (i) 20 grams or 20 curies,
whichever is less, of plutonium or uranium-233, or (ii) 350 grams of
uranium-235 (contained in uranium enriched to 20 percent or more
in the U-235 isotope).

(4) Special nuclear material subject to this part may also be
protected pursuant to security procedures prescribed by the
Commission or another Government agency for the protection of
classified materials. The provisions and requirements of this part
are in addition to, and not in substitution for, any such security
procedures. Compliance with the requirements of this part does

                           15
                                Audit of NRC’s Force-on-Force Inspection Program



not relieve any licensee from any requirement or obligation to
protect special nuclear material pursuant to security procedures
prescribed by the Commission or other Government agency for the
protection of classified materials.

(5) This part also applies to the shipment of irradiated reactor fuel
in quantities that in a single shipment both exceed 100 grams in net
weight of irradiated fuel, exclusive of cladding or other structural or
packaging material, and have a total radiation dose in excess of
100 rems per hour at a distance of 3 feet from any accessible
surface without intervening shielding.

(6) This part prescribes requirements for the physical protection of
spent nuclear fuel and high-level radioactive waste stored in either
an independent spent fuel storage installation (ISFSI) or a
monitored retrievable storage (MRS) installation licensed under part
72 of this chapter, or stored at the geologic repository operations
area licensed under part 60 or part 63 of this chapter.

(7) This part prescribes requirements for the protection of
Safeguards Information (including Safeguards Information with the
designation or marking: Safeguards Information—Modified
Handling) in the hands of any person, whether or not a licensee of
the Commission, who produces, receives, or acquires that
information.

(8) This part prescribes requirements for advance notice of export
and import shipments of special nuclear material, including
irradiated reactor fuel.

(9) As provided in part 76 of this chapter, the regulations of this
part establish procedures and criteria for physical security for the
issuance of a certificate of compliance or the approval of a
compliance plan.




                           16
                                      Audit of NRC’s Force-on-Force Inspection Program


                                                                          Appendix B
SCOPE AND METHODOLOGY

       The objective of this audit was to evaluate NRC’s Force-on-Force
       inspection program to determine if design and implementation of
       the program are consistent, thorough, reasonable, and in
       accordance with NRC standards. The audit focused on the
       program’s development from the first triennial inspection cycle
       through the current second triennial inspection cycle.

       Auditors reviewed Federal Government laws and regulations
       applicable to the Force-on-Force inspection program, including:

          The 2005 Energy Policy Act, Section 651.
          10 Code of Federal Regulations, Sections 73.1 and 73.55.

       Auditors also reviewed NRC guidance governing baseline security
       inspection procedures, regulatory processes, employee training
       standards, and regulatory implementation guidance issued to
       licensees. Guidance included:

          Inspection Procedure 71130.03: Contingency Response.
          Inspection Procedure 71130.04: Equipment Performance,
           Testing, and Maintenance.
          Inspection Procedure 71130.05: Protective Strategy Review.
          Inspection Manual Chapter 0609, Appendix E: Baseline Security
           Significance Determination Process for Power Reactors.
          Inspection Manual Chapter 1245, Qualification Program for the
           Office of the Nuclear Reactor Regulation Program.
          Regulatory Guide 5.44, Perimeter Intrusion Alarm Systems.
          Regulatory Guide 5.69, Guidance for the Application of the
           Radiological Sabotage Design-Basis Threat in the Design.
          Development, and Implementation of a Physical Security
           Program that Meets 10 CFR 73.55 Requirements.

       Auditors interviewed NSIR managers, Force-on-Force inspectors,
       security risk analysts, and security inspectors and managers from
       all four NRC regional offices to identify their respective roles
       responsibilities in the program. Staff with experience in both the
       first and second inspection cycles were asked to compare and
       contrast the two cycles, and to comment on programmatic changes
       undertaken since the first inspection cycle. Auditors reviewed e-
       mail correspondence and observed a secure video-teleconference
       involving headquarters and regional staff to corroborate interviews

                                 17
                               Audit of NRC’s Force-on-Force Inspection Program



and better understand internal deliberations over policy and
procedure. Auditors interviewed industry representatives and
licensee personnel to gather external perspectives on program
performance and NRC management’s receptivity to industry
concerns. In addition, auditors observed two Force-on-Force
inspections and one industry outreach conference.


Auditors reviewed staff training records to verify NRC’s new training
and qualification tracking mechanism for Force-on-Force staff.
Auditors analyzed budget and FTE data to measure program
resource trends, and also analyzed time and attendance data to
measure workload associated with Force-on-Force inspections.


OIG conducted this audit between January 2009 and June 2009 in
accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our finding and conclusions based on our audit
objective.


Major contributors to this report were: Beth Serepca, Team Leader;
Paul Rades, Audit Manager; Jaclyn Storch, Senior Analyst; and
Maxinne Lorette, Senior Auditor.




                          18
